                       U.S. DEPARTMENT OF THE INTERIOR
                        OFFICE OF INSPECTOR GENERAL




            PROGRAM ASSESSMENT RATING TOOL
                 PROGRESS EVALUATION

            U. S. FISH AND WILDLIFE SERVICE
MIGRATORY BIRD MANAGEMENT AND CONSERVATION PROGRAM




  Y-RR-FWS-0012-2007                         APRIL 2008
                Uniited Sta
                          ates Dep
                                 partmen
                                       nt of the
                                               e Interior
                                   Office of Inspector
                                             I         G
                                                       General
                                   Office of Insppections and Evvaluations
                                       381 Eldenn Street, Suite 1100
                                         Herndonn, Virginia 20170

                                                                                         April 14, 2008

Memoranndum

To:             H. Daale Hall
                Directtor, U. S. Fissh and Wildllife Service


From:           Donalld W. Cairnss
                Easterrn Regional Manager

Subject:        Prograam Assessm
                               ment Rating Tool
                                           T    (PART) — Progresss Evaluationn of the
                Fish and
                     a Wildlife Service (FW
                                          WS) Migratoory Birds Maanagement annd Conservaation
                Prograam (Report No.
                                 N Y-RR-F FWS-0012-22007)

        The Office off Inspector General
        T                            G       recenntly had the opportunityy to completee an indepenndent
assessmeent of the FW WS Migratorry Birds Proggram. We sppent time wiith FWS empployees and
visited seeveral field sites
                       s     to learnn about Progrram operatioons. We thannk your stafff for their tim
                                                                                                     me
and valuaable input.

        O team evaaluated the prrogress yourr staff has made
        Our                                             m     in addreessing recommmendationss
from the Office of Management
                     M            a Budget (OMB). Wee provide ouur observatioons in the
                                  and
attached report. Oveerall, Programm officials have
                                              h    worked steadily to address
                                                                      a        the challenges
                                                                                   c
identifiedd in 2004, an
                      nd we offer nine
                                  n suggesttions that wee believe willl help you too successfullly
manage thet Program and demonsstrate resultss. We encouurage you to discuss thesse suggestionns
with youur Assistant Director
                      D       — Migratory
                                  M          Birds and impplement thosse that you agree will
improve FWS perforrmance.

      Iff you have an
                    ny commentts or questions regardingg this report, please call me
                                                                                  m at
703–487––8011.

Attachmeent
                  PART PROGRESS EVALUATION:
                 U.S. FISH AND WILDLIFE SERVICE
          MIGRATORY BIRD MANAGEMENT AND CONSERVATION

                                           TABLE OF CONTENTS

Introduction

       Why We Did This Progress Evaluation................................................ 1
       Objectives and Methodology ................................................................ 1
       Overview — Migratory Bird
       Management and Conservation Program ............................................. 1

Observations and Suggestions

       Planning ................................................................................................ 3
       Performance Measurement ................................................................... 7
       Independent Evaluation ...................................................................... 12

Appendix A:               History and Use of the PART

Appendix B:               Sites Visited or Contacted

Appendix C:               Table of Suggestions




ON THE COVER:
Focal Species – the Blackfooted Albatross (left) and the Laysan Albatross (right). Source: FWS.
                                      INTRODUCTION

WHY WE DID THIS PROGRESS EVALUATION
                                                              WHAT IS THE PART?
The Deputy Secretary of the Department of the Interior
(DOI) asked the Office of Inspector General (OIG) to
                                                              Federal agencies use the
evaluate the progress made by programs designated
                                                              Program Assessment Rating
Results Not Demonstrated by the Office of Management
                                                              Tool (PART), a standard
and Budget (OMB). OMB uses the Program Assessment
                                                              questionnaire, to submit
Rating Tool (PART) to make these designations. More
                                                              information on federal
detailed information on the PART process can be found in
                                                              programs to the Office of
Appendix A.
                                                              Management and Budget
                                                              (OMB). OMB examiners
We selected the U.S. Fish and Wildlife Service (FWS)
                                                              assess programs based on
Migratory Bird Management and Conservation Program
                                                              responses to YES/NO questions
(referred to as the Program) for this progress evaluation.
                                                              in the areas of program
OMB reviewed the Program in 2004 and plans to reassess
                                                              purpose and design, strategic
it in 2008.
                                                              planning, program
                                                              management, and — most
OBJECTIVES AND METHODOLOGY                                    importantly — program
                                                              results.
Based on its 2004 review, OMB made recommendations
that relate to Program planning, performance, and
                                                              OMB uses the information to
evaluation. Our objectives were to determine what
                                                              determine program
progress the Program has made toward implementing the
                                                              effectiveness, to recommend
OMB recommendations and to provide observations and
                                                              improvements for rated
suggestions that DOI and the Program can use in
                                                              programs, and to follow up on
preparing for upcoming PART reviews.
                                                              those improvements.
To meet the objectives, we interviewed key officials at the
Program’s headquarters and reviewed Program
documentation. We completed site visits and interviews        The ExpectMore.gov Web site
with a number of FWS staff and joint venture partners, as     publishes PART results.
indicated in Appendix B. We conducted this progress
evaluation in accordance with the “Quality Standards for      See Appendix A for more
Inspections” established by the President’s Council on        information on the history and
Integrity and Efficiency. We based our suggestions on         use of the PART.
OMB 2007 PART guidance.

OVERVIEW: MIGRATORY BIRD MANAGEMENT AND CONSERVATION PROGRAM
FWS and an extensive network of partner organizations operate at local, regional, national, and
international levels to protect more than 900 species of birds and the habitats on which they
depend. Through the Program, FWS fulfills America’s obligations under more than 20 U.S. laws
and international agreements.


                                               -1-
Within FWS, the Assistant Director for Migratory Birds and State Programs manages the
Program through two divisions at the headquarters level — the Division of Bird Habitat
Conservation (DBHC) and the Division of Migratory Bird Management (DMBM) — and several
regional offices.

The DBHC, in addition to other duties, administers grant programs for habitat protection and
restoration, research and monitoring of bird populations, and related law enforcement, outreach,
and education efforts. These grants provide funding on a matching basis, not only here in the
United States but also to other countries throughout the Western Hemisphere.

The DMBM fulfills the Program’s regulatory role. Each year, FWS issues guidance on
allowable hunting seasons for the various species protected by the Program. State wildlife
agencies (and Canadian counterparts) join with the FWS in four Flyway Councils — Atlantic,
Mississippi, Central, and Pacific — to coordinate these regulatory efforts. In addition to hunting,
FWS migratory bird permits authorize the take and possession of migratory birds for a variety of
purposes including scientific study, education, rehabilitation, and religious use. Nationwide, the
Program’s permit offices process more than 13,000 permit requests annually. Underlying these
regulatory activities are extensive scientific efforts, including bird population surveys, ecological
assessments, and related monitoring. The DMBM manages a research center and numerous field
projects to inform international, federal, and state policymakers and other conservation actors.

Overall, the Program represents a complex web of relationships, centered on a common goal of
protecting migratory bird species and the landscapes that sustain them. On-the-ground
conservation activities across North America are coordinated by the regional offices and a
number of partnership programs, referred to as joint ventures (JVs). These JVs are self-directed
entities involving representatives from not only federal, state, and local government agencies, but
                                         also nonprofit and private sector organizations. JVs
                                         deliver conservation actions in furtherance of the North
  The Birds Forever initiative, a        American Waterfowl Management Plan (NAWMP) —
  joint effort of the U.S. Fish and      through which the United States, Canada, and Mexico
  Wildlife Service and the U.S.          seek jointly to sustain our continent’s waterfowl
  Geological Survey, would               populations. Other partnership efforts may focus on
  expand and improve the health          limited geographies, or on efforts related to specific
  of wild bird habitat, strengthen       species. As key players in this collaborative network,
  educational outreach programs          Program officials seek to ensure that technical assistance
  and [enable DOI to] work in            is received wherever it may be most needed.
  partnership with states, local
  communities, conservation              FWS administers more than $100 million in federal
  organizations, and other               funds for migratory bird conservation, as summarized in
  bird-loving partners to reverse        Table 1. The budget request for fiscal year (FY) 2009,
  [the] precipitous decline in wild      through its Birds Forever initiative, proposes a
  bird populations.                      significant increase in direct appropriations for the
                                         Program, as well as a projected rise in the price of
                 DOI Press Release,      Migratory Bird Hunting and Conservation (Duck)
                      February 2008      Stamps. If the Congress appropriates funding as
                                         proposed, FWS will receive added funding for Migratory



                                                -2-
Bird Management, supporting partnership efforts and the monitoring and assessment of bird
populations. Expanded information about species status would contribute to the development of
management strategies for at-risk populations. Additionally, increased revenues from the sale of
Duck Stamps would boost the Migratory Birds Conservation Account, enabling FWS to expand
land acquisition in support of conservation objectives.


       TABLE 1.                  FY2007                 FY2008                 FY2009 Request
  PROGRAM BUDGET
   ($ in thousands)          FTE          $         FTE            $            FTE             $

 Migratory Bird
                                217      40,352         217      40,441             242       53,195
 Management
 North American
 Wetlands                           9    39,893           9      46,564                9      43,147
 Conservation
 Neotropical Migratory
                                    1     3,941           1        4,430               1        3,960
 Bird Conservation
 Migratory Bird
                                   66    43,723           66     40,000               76      54,036
 Conservation Account

            Combined:           293     127,909         293     131,435             328      154,338

                                                       FTE = Authorized staff, in full-time equivalents
                                                                 Source: FWS Budget Justifications




                         OBSERVATIONS AND SUGGESTIONS

Based on its 2004 PART assessment, OMB made a number of recommendations to improve
Program operations. We reviewed the Program in 2007 and observed extensive progress toward
implementing the OMB improvement plan. In fact, only one of OMB’s recommendations — to
schedule and carry out independent program evaluations — was incomplete.

Overall, Program officials seem to have embraced the PART recommendations as providing the
impetus to clarify the goals that drive migratory bird conservation efforts and to relate
management plans to the budget. They have made significant progress, and they continue to
work on ways to prioritize potential projects more effectively. Nevertheless, we did find some
areas in which FWS managers could continue to use the PART’s underlying planning and
management principles to benefit their work. Our observations and suggestions follow. We
address the topics of planning, performance measurement, and independent evaluation. We
relate each of these topics to specific PART questions for which the Program was unable to
satisfy OMB requirements during the last PART review.




                                              -3-
PLANNING
Shortly before the PART review in 2004, FWS published A Blueprint for the Future of
Migratory Birds:Migratory Bird Strategic Plan 2004-2014. The Blueprint calls for the
Program’s limited resources to be focused on bird populations in greatest need of conservation
and management. In 2005, national and regional officials jointly selected nine focal species from
a list of “Birds of Management Concern”.
Regional officials are working to develop
action plans for these targeted species. As the
action plans are completed, Program officials
expect to be better able to develop reliable
baselines and outcome targets for each focal
species. Under the Birds Forever initiative
proposed in the FY2009 budget request, the
number of targeted focal species would
expand from 9 to 36.

The Blueprint lists five implementation
areas with specific strategies in each. For
example, one implementation area —
population monitoring, assessment, and                           Focal Species: Painted Bunting.
management — includes a strategy of                                                 Source: FWS.
establishing “clear, quantifiable, and
measurable objectives for all survey and monitoring projects” in the Program. With 69 different
strategies across the 5 implementation areas, the Blueprint identifies national Program priorities
broadly, but does not prioritize the underlying implementation strategies. Rather, FWS
management relies on officials in each region to identify priorities appropriate to the species
status and landscape conditions in their respective ecoregions and flyways.



          PROGRAM PRIORITIES                                   IMPLEMENTATION AREAS

     Address the loss and degradation of                          Population Monitoring,
         migratory bird habitats.                              Assessment, and Management

        Increase and improve scientific                             Habitat Conservation
        information on migratory bird
                 populations.                                     Permits and Regulations

  Strengthen and expand regional, national,                     Consultation, Cooperation,
  and international partnerships to achieve                         Communication
      comprehensive bird conservation.
                                                                          Recreation

               Source: A Blueprint for the Future of Migratory Birds:Migratory Bird Strategic Plan 2004-2014.



                                                   -4-
At least one regional strategic implementation plan formally prioritizes implementation strategies
from the Blueprint. Reviewed by representatives of pertinent flyway councils, states, and
Partners in Flight, the FWS Region 4 (Southeast) plan — Building on the Past, Providing for the
Future — provides JV councils and partners with information needed to focus efforts on
Program priorities. In this region, JV councils consider
regional priorities, focal species, and habitat conditions
and review proposed conservation and research projects            PART QUESTION 4.1
based on how each would contribute to Program                Has the program demonstrated
objectives and meet the habitat needs of focal bird          adequate progress in achieving
species. JVs and partners can then coordinate efforts to     its long-term performance
fund the most promising projects through the appropriate     goals?
FWS grants process, cost-sharing arrangements, and
other avenues.
                                                                 PART QUESTION 4.2
Aligning regional priorities with the Program’s                Does the program (including
implementation strategies should make it easier for field      program partners) achieve its
officials to articulate how individual projects would          annual performance goals?
support the achievement of the Program’s performance
goals. Though draft documents do show that officials
are making progress, the level of strategic integration among various FWS organizational levels
— and between FWS and its partners — is not consistent from region to region. Identifying the
best aspects of existing plans and sharing lessons learned can help officials finalize regional
strategic implementation plans across the Program.

                                               SUGGESTION 1
               Program officials should assess existing Regional plans and identify best
               practices that can serve as criteria for more consistent development of
               prioritized plans in every Region.

In addition, FWS is advancing a new framework within which to make strategic conservation
decisions and improve conservation management. Strategic Habitat Conservation (SHC) is the
result of a broad-based effort chartered by FWS management in 2004 to “… 1) characterize
current and emerging scientific habitat conservation strategies and 2) recommend unifying
approaches and capacity building measures.” The team published its final report in July 2006,
and FWS management officially endorsed the SHC framework in March 2007.

SHC incorporates biological planning, conservation design, conservation delivery, and
monitoring and research into a business model structured to help achieve conservation objectives
at multiple scales. The framework encourages analysis of landscape data in ways that enable
researchers to evaluate capacity — the number of birds that specific habitats can sustain — as
well as the potential impacts of changes in the environment, such as urban development or
wetlands restoration. FWS officials expect that implementation of SHC will help not only the
Program but also other agency programs and partners to be able to objectively demonstrate
conservation achievements, and to better target conservation actions for specific populations and
habitats.


                                              -5-
     STRATEGIC HABITAT
       CONSERVATION

  Using this framework, we
  improve our abilities to define
  desired biological outcomes
  and articulate the consequences
  of site-scale actions on
  landscape scale functions.

      Final Report of the National
      Ecological Assessment Team




However, confusion exists in various regions, where officials say they have some difficulty
discerning the differences between SHC and traditional approaches to conservation. While the
concept of SHC is supported in all Program regions, some officials have expressed a sense that
further work needs to be done to clarify how SHC is intended to affect day-to-day operations in
order to ensure successful implementation of the business model.

                                               SUGGESTION 2
              FWS officials should develop and conduct workshops for employees and
              appropriate Program partners to expand understanding of Strategic Habitat
              Conservation. Workshops should address the purpose of the SHC business
              model, its underlying principles, and the practical implications for
              conservation activities in the field.

As previously noted, the Program is part of a complex landscape in which conservation activities
are accomplished through the combined efforts of many partners. In this environment, the role
of FWS may range from its traditional regulatory and on-the-ground management capacities to
                                       that of a source of funding for private ventures or a
                                       partner in a scientific alliance.
  Accomplishment of the
  outcome goals will depend on         When FWS’s role is that of funding source, much of the
  the efforts of many and will         Program’s funding serves as seed money that leverages
  require the program to               other resources — such as matching fund contributions
  continue to work with partners       from various partners —to achieve specific actions. The
  to achieve these goals.              conservation value achieved by these dollars
                                       significantly affects overall outcomes, so rolling up
                   ExpectMore.gov      partners’ accomplishments with FWS accomplishments



                                              -6-
could give a more complete picture of the effectiveness of the Program. Some partners may not
receive federal funding in a given year, but many of the FWS staff spend time in a technical
assistance role that helps to maintain strong working relationships with Program partners.
Officials feel these relationships are critical to the long-term success of the Program.

When FWS acts in the role of partner in a scientific alliance, it acts in part to address the issue of
how best to practice sound science given limited in-house research capacity. FWS has entered
into an agreement with the Cornell Laboratory of Ornithology that includes an innovative
research approach to collect certain types of data. The memorandum of understanding between
the two parties outlines joint efforts to promote outreach and citizen science — the use of
volunteers to collect data, generally with guidance from qualified scientists. Although some
Program employees question the reliability of citizen science data, citizen science can provide
trend data that can serve as a general benchmark against which to compare data collected
through rigorous scientific means. Citizen science also offers an opportunity to build on the
public’s interest in birds and habitat conservation, an added benefit when considering the
Program’s PART outcome goal to sustain the “percent of American adults who participate in
bird-related recreation”.

In addition to some use of citizen science, Program officials tell us that, for years, they have
worked with the U.S. Geological Survey (USGS) through a variety of formal and informal
arrangements that differ from region to region and project to project. Often, the work is a matter
of mutual interest, drawing funding from both FWS and USGS. At other times, the Program has
had to engage USGS support through a fee-for-service model. Although these varying
agreements have resulted in many important achievements, a formal interagency agreement
between the two bureaus could institutionalize and clarify the partnership relationships that
already exist at the staff level, and foster increased collaboration on scientific activities. This
may have beneficial implications for the Program’s ability to meet outcome goals.

                                                  SUGGESTION 3
               FWS officials should strengthen the Program’s partnership with the U.S.
               Geological Survey by entering into a formal memorandum of understanding
               that would clarify each bureau’s capabilities, roles, and responsibilities.



PERFORMANCE MEASUREMENT
Program officials used the PART process as an opportunity to focus on critical issues, such as
how to convey Program effectiveness when external factors that range from catastrophic weather
to international political and legal considerations
significantly affect outcomes. Ultimately, officials
developed the measures listed in Table 2. Since 2004,           PART QUESTION 2.4
Program officials have developed baseline estimates and     Does the program have
performance targets for these key measures, and they        baselines and ambitious targets
continue to perfect data collection processes to assure     for its annual measures?
accuracy of performance information.



                                                 -7-
                   TABLE 2. PROGRAM PERFORMANCE MEASURES
     Percent of all migratory bird species that are at healthy
                                                                   Long-term      Outcome
     and sustainable levels
     Percent of adult Americans who participate in
                                                                   Long-term      Outcome
     bird-related recreation
     Percent of bird population management needs met to
     achieve healthy and sustainable populations of birds           Annual          Output
     listed on the Birds of Management Concern list
     Percent of habitat needs met to achieve healthy and
                                                                    Annual          Output
     sustainable levels of migratory birds
     Percent of migratory bird species that may be
     harvested for sport hunting or falconry according to
                                                                    Annual          Output
     the Migratory Bird treaties for which harvest is
     formally approved
     Acres of wetland restored per million dollars
                                                                    Annual        Efficiency
     expended
                                                                         Source: ExpectMore.gov

Program officials have also made significant progress in
tying the accomplishment of annual and long-term
                                                                    PART QUESTION 2.7
performance goals to the budget and in outlining
subsequent resource needs. For example, staff at the             Are budget requests explicitly
Patuxent Research Center told us that specific projects          tied to accomplishment of the
listed in their annual work plan link to the general             annual and long-term
strategies from the national Blueprint. Supervisors              performance goals, and are the
assign project activities to individual employees, who           resource needs presented in a
track their time and related expenditures. This spending         complete and transparent
can be tied back to the work plan and, ultimately, to            manner in the program’s
FWS budget processes.                                            budget?

In addition to integrating performance information into
budgetary decision making, PART guidance indicates                  PART QUESTION 3.2
that managers and partners should be held accountable           Are Federal managers and
for results. Officials in at least two FWS regions have         program partners … held
developed supervisory performance plans that not only           accountable for cost, schedule,
link to programmatic performance objectives but also            and performance results?
specify related individual performance goals. Outside
the FWS, JV offices distribute federal funds to partners
who are accountable for providing certain outputs by certain times, as agreed to through the
planning or grant-making processes. FWS regional officials track these deliverables and monitor
projects to see if they are getting what they expect. If a designated partner is not delivering as
expected, officials then can either revamp the project or cancel it.



                                               -8-
Thus, the connection between the budget and field-level accomplishments should be traceable.
FWS staff and partners produce on-the-ground results through projects prioritized from
national- to regional- to field-level planning documents, and officials tell us this linkage is
becoming more refined as information collection and strategic plans increase in sophistication.
Depending on the scope and complexity of the projects, field offices typically report results
about three years after the initial allocation of funds (for example, projects initiated in FY2005
may be completed and reported as FY2008 accomplishments).

However, FWS staff expressed some concerns to us over how best to capture data on the same
activities for different purposes and from many different partner data sources. Some FWS staff
at regional and field offices say that confusion exists about the various performance measures
and data calls associated with the Government Performance and Results Act (GPRA), PART,
and other DOI and FWS management information needs. Perceived disparities in these tools of
accountability continue to challenge officials in the field, especially those who are trying to
communicate reporting requirements to partners not bound by federal ties.

Some FWS officials in the field have also expressed concerns about inconsistencies in data
collection among JVs. FWS Regional Offices are partners in each JV, but once formally
established, these JVs are autonomous entities rarely managed by an FWS official. JVs report
directly to Program Headquarters. Given the de-centralized model of FWS, FWS management
might help to improve consistency and timeliness by revising procedures so that each JV reports
GPRA, PART, and other key performance data through an affiliated FWS Regional Office.
Such a process might also help to identify more reliably the accomplishments achieved through
the leveraging of partner resources with federal funds. Reporting JV accomplishments along
with Program accomplishments could provide a more accurate depiction of the combined
achievements of the Program and its partners.

                                                 SUGGESTION 4
               FWS officials should work with JV management bodies to revise reporting
               procedures for key performance information, and vest FWS Regional Offices
               with responsibility for performance data validation.

During the 2004 PART review, Program officials struggled to define a meaningful efficiency
measure. Officials considered using the number of permits processed within 30 days as a
possible efficiency measure, but this was not accepted during the 2004 PART process.
Generally, PART guidance indicates that the strongest
measures of efficiency are those that relate outcomes to
cost. However, due to the many external factors and               PART QUESTION 4.3
long time horizons involved, many Program officials          Does the program demonstrate
note considerable difficulty in drawing a direct             improved efficiencies or cost
one-to-one correlation between conservation outcomes         effectiveness in achieving
and dollars budgeted.                                        program goals each year?

Ultimately, Program officials and the OMB examiner
agreed to the measure “acres of wetland restored per million dollars expended”. This measure
assumes restoration costs only and not land acquisition expense. Some officials continue to


                                                -9-
express dissatisfaction with this as an efficiency measure. Indeed, there are many variables
affecting the cost of restoration, such as the condition from which acreage is to be restored, the
location of restoration work, the availability of appropriate scientific data about the landscape
and the species that inhabit it, and the availability of appropriate labor and equipment. Also, the
number of acres cited for this measure would fluctuate considerably from one year to the next.
Such substantial volatility in the annual calculation of this ratio could render nearly meaningless
any attempt to use this measure to demonstrate Program efficiency (or inefficiency) over time.

Rather than simply tallying all results and dividing by the budget, a more effective means of
handling such data might be to stratify results data in a way that addresses the underlying
question: Are Program activities focusing scarce restoration funding on the most important
habitats? As mentioned previously, funds from the Migratory Bird Conservation Account
support the Program’s outcome goals by supporting habitat acquisition. The Government
Accountability Office (GAO), upon reviewing nearly five years of FWS land acquisition data in
South Dakota, observed: “[FWS] has done a good job of acquiring high-priority habitat, but
some cost-efficiencies can still be gained.” The GAO report went on to cite several significant
factors that impact the ability of FWS officials to achieve these efficiencies, and also noted that,
even if acquisition strategies were to be optimized, FWS would not be positioned to meet its
long-term goals without a significant increase in funding.

In their analysis, GAO staff parsed FWS data based upon the relative habitat value assigned to
grassland easements, and by the per-acre cost of each easement acquired. To the credit of FWS
                                            officials administering the acquisition efforts, the
                                            analysis showed that the majority (52%) of acres
                                            studied were in higher priority zones at below
                                            average costs. The opportunities for additional cost-
                                            efficiency lie in the 5% of acquired acres that were
                                  Lower Cost




                                            in lower priority zones, but for which FWS had paid
                                            above average costs.

                                               It would seem that Program officials could apply a
                                               similar analysis to habitat restoration cost and
                                               results data. A related efficiency measure would
                                               require a baseline analysis of past data, together
                                               with performance targets that would reflect
        Higher Priority                        improved use of the Program’s investment strategies
                                               over time by reducing the percentage of acres in the
                                               low-priority/high-cost quadrant and increasing the
                                               percentage of acres in the high-priority/low-cost
                                 OIG Staff     quadrant.

                                                 SUGGESTION 5
               FWS officials should revise its efficiency measure to show the extent to which
               Program resources are focused on restoring high-priority habitat at a
               reasonable cost.




                                                - 10 -
Reporting against the Program’s key performance
measures requires a reliable sense of what each trust
species needs to be “healthy and sustainable” — how
many birds and breeding pairs there are, and what they
need to survive. Though the Program does conduct
targeted population surveys, particularly for game
species, there is no way at a regional scale to reliably
estimate populations for the Program’s many trust
species as these birds cross state, regional, and
international boundaries. Officials expect that the
modeling tools and predictive analysis currently being
                                                                Focal Species: Cerulean Warbler.
used on an inconsistent basis throughout the Program
                                                                                    Source: FWS
hold the key to future improved accountability. The
strength of the modeling tools is that they enable a broad landscape view of the status of trust
species along with the ability to examine the effect of certain actions on those populations in
ways that link directly into management decision making.

Integrating datasets promises a new level of analysis that enables managers to begin addressing
questions of sustainability and to predict population response to certain changes in habitat. For
example, a data analysis project conducted at the Lower Mississippi JV enables FWS officials
                                         and conservation partners to draw information from two
                                         separate systems, integrating satellite imagery with
  Information gathered from              Forest Service data on woodland characteristics. This
  [aerial] surveys will document         allows for a more accurate picture of bird habitats in
  changes in the numbers and             terms of wildlife needs. Staff can now consider the
  distribution of migratory birds        quality as well as the quantity of acres, and consider
  and [researchers will] correlate       which acres would be most conducive for certain
  these results to natural or            species. Such analysis could facilitate a better
  man-made disturbances in the           understanding of the consequences of development
  environment.                           projects in certain areas, giving more timely information
                                         on which to base management decisions.
               DOI FY2009 Budget
          Highlight: Birds Forever       Ultimately, sound scientific information must feed into
                                        managerial and policy deliberations if the Program’s
objectives are to be achieved. Expanded use of geographic information systems and new
modeling technologies could more directly integrate scientific information into managerial
decision making. It could also enable Program officials to develop performance targets and
results information that are more meaningful and relevant to specific focal species and their
habitat needs.

                                                SUGGESTION 6
               FWS officials should develop and conduct workshops for employees and
               appropriate Program partners to increase awareness of the latest
               technological improvements in conservation modeling. These workshops
               should include concrete examples of how such technologies have been used to
               date and include real data where possible.


                                              - 11 -
FWS hires highly skilled technical experts in many disciplines. These experts could be better
prepared to communicate with diverse constituencies and with officials who have decision-
making authority if they understand the political landscape. Management and public policy
training for technical staff could advance Program employees’ ability to 1) work effectively with
diverse constituencies, 2) understand the managerial implications of their research efforts and the
channels that advance field data to Headquarters, and 3) better ground scientific research in
management options.

                                                SUGGESTION 7
               FWS management should expand opportunities for management and public
               policy training for technical researchers serving at all levels of the Program.


INDEPENDENT EVALUATION
Independent evaluative activities have been conducted at             PART QUESTION 2.6
various levels of the Program and in various ways. In one        Are independent evaluations of
sense, this is inherent in the nature of a science-based         sufficient scope and quality
program, as officials often seek peer review of population       conducted on a regular basis or
surveys, modeling efforts, and protocols for data                as needed to support program
collection. Although these efforts do not constitute a           improvements and evaluate
programmatic review, they do indicate a programmatic             effectiveness and relevance to
effort to engage outside expertise in validating the             the problem, interest, or need?
scientific basis for management decision making.

At a broader scale, in 2007, a committee of international experts released a continent-wide
review of accomplishments achieved over the 20 years since the NAWMP was first adopted.
This Continental Progress Assessment included a review of the activities of all JVs and
                                        discussed key successes and challenges.
  Joint Ventures have largely
                                        FWS officials have also engaged the Wildlife
  relied on acres as a measure of
                                        Management Institute for another evaluative effort. At
  accomplishment. Since 1986,
                                        the time of our interviews, officials were in the process
  over 13 million acres of
                                        of defining the scope of the review.
  waterfowl habitat in North
  America have received some
                                        Future evaluative efforts could focus more directly on
  form of protection, which is
                                        the relative effectiveness of investments in species
  often permanent. Plan
                                        management versus habitat conservation. Alternatively,
  partners have also restored or
                                        a thorough examination of the web of institutional
  enhanced over 11 million acres
                                        relationships surrounding the Program may be useful.
  of wetland and upland habitat
                                        Partnership efforts result in activities that can be difficult
  in the U.S. and Canada.
                                        to track overall, while also presenting significant
                                        challenges in differentiating the effects of federal
             NAWMP Continental
                                        activities from the contributions of other Program
              Progress Assessment
                                        partners. An independent evaluator may be able to offer


                                              - 12 -
                                                                                                        C




suggestions on how to work more efficiently with these partners and to track accomplishments
more discretely.

Monitoring and evaluation should take place in various forms at all levels of the Program, from
Headquarters-driven national and international assessments, to local project- or site-specific
reviews. Officials could charter benchmarking studies across regional boundaries to identify
best practices (whether in field conservation or administrative matters) to share with all regions if
applicable to local circumstances and needs. Regional staff we interviewed did indicate that
there have been some third-party reviews of Program activities on an as-requested basis, but not
as part of a regular cycle of review. As implementation of the SHC framework matures,
independent evaluation should become institutionalized as an important component of Program
operations.

Completing independent reviews at regular intervals would be consistent with the SHC
framework, the adaptive management philosophy — in which managers make changes based on
the results of ongoing monitoring, and PART guidance. A regular cycle of small-scale reviews
could enable Program officials to verify that their work continues to fulfill needs as intended, to
make any necessary adjustments, and to assure achievement of project objectives. To the extent
feasible, multiple perspectives (various disciplines; headquarters, regional, and field levels of the
organization) should be engaged in effecting a comprehensive evaluation strategy.

                                                 SUGGESTION 8
               FWS officials should develop and implement a comprehensive evaluation
               strategy that incorporates multiple perspectives in the assessment of
               Program activities at various levels and Program outcomes at various scales.

In addition to peer review and professional evaluation, FWS could assess various activities in the
field using a model similar to that of the Small Business Administration’s Service Corps of
Retired Executives, in which retired business owners and executives volunteer their time to
support small businesses nationwide. Given the compelling mission of the Program, FWS may
be able to engage former employees, active and retired university professors, and others who
have appropriate expertise to volunteer their time to help provide assurance that the Program is
fulfilling its goals. Enlisting knowledgeable volunteers in this manner could help to defray the
potential cost of third-party reviews.

                                                 SUGGESTION 9
               FWS officials should work to engage a cadre of skilled volunteers to provide
               independent assessment of Program operations in the field.


Continued progress in integrating planning processes and validating performance data, together
with expanded monitoring and evaluation, should prepare FWS to demonstrate important results
through the Migratory Bird Management and Conservation Program.




                                               - 13 -
              APPENDIX A: HISTORY AND USE OF THE PART

Planning and performance In 1993, the Congress found federal managers to be
           monitoring are “disadvantaged in their efforts to improve program efficiency
          required by law and effectiveness, because of insufficient articulation of program
                          goals and inadequate information on program performance.”
                          The Government Performance and Results Act (Public Law 103-
                          62), or GPRA, was passed to promote a focus on results by
                          requiring federal agencies to engage in strategic planning and
                          performance reporting.

  Objectives and results of   The “President’s Management Agenda,” which includes a U.S.
     federal programs are     Government-wide initiative to improve budget and performance
   assessed during budget     integration, was published in 2001. The Agenda calls for
              formulation     agencies to monitor program performance and to incorporate
                              performance review into budgetary decision-making.

                              To support this initiative, the Office of Management and Budget
                              (OMB) instituted a new activity within the context of budget
                              formulation. OMB uses a standard questionnaire called the
                              Program Assessment Rating Tool (PART) to engage federal
                              programs in a review of program design, strategic planning,
                              program management, and the achievement of results that
                              demonstrate value for the taxpayer. Through the PART process,
                              OMB rates programs as Effective, Moderately Effective,
                              Adequate, or Ineffective. Alternatively, OMB deems programs
                              that are unable to provide reliable performance information (thus
                              precluding assignment of a program rating) Results Not
                              Demonstrated and recommends establishment or improvement
                              of mechanisms for performance measurement.

OMB has found that many Of the 72 DOI programs assessed between 2002 and 2007, OMB
       DOI programs lack rated only 8 programs (11 percent) Effective and placed 16
 performance information programs (22 percent) in the category Results Not
                         Demonstrated. DOI programs assessed through the PART
                         process reflect over $9 billion dollars in annual budget authority.
                         Approximately one quarter of this spending is associated with
                         programs that lack reliable performance information.
                                        Number of     Percent of
       PART Ratings, 2002-2007
                                        Programs      Programs
 Effective                                  8            11
 Moderately Effective                      23            32
 Adequate                                  25            35
 Ineffective                                0             0
             Results Not Demonstrated      16            22
     TOTAL NUMBER OF PROGRAMS              72            100

PART findings can be used to 1) justify termination or
substantial curtailment of federal programs, 2) support legislative
or fiscal enhancements, or 3) promote management
improvements. OMB publishes PART results on its
ExpectMore.gov Web site, together with recommended
improvement actions for every program it has assessed. Agency
officials and program managers are expected to follow up on
these recommendations and to keep OMB, and ultimately the
public, apprised of progress through updates of the information
posted to ExpectMore.gov and through internal communications.
OMB then reassesses programs on schedules developed in
consultation with responsible agencies.




               A-2
                    APPENDIX B: SITES VISITED OR CONTACTED

                              FISH & WILDLIFE HEADQUARTERS
Assistant Director — Migratory Birds
Division of Bird Habitat Conservation
Division of Migratory Birds Management
                     FISH & WILDLIFE REGIONAL AND FIELD OFFICES
Alaska Region (Region 7)
Habitat and Population Evaluation Team
Midwest Region (Region 3)
Mountain-Prairie Region (Region 6)
Northeast Region (Region 5)
Pacific Region (Region 1)
Southeast Region (Region 4)
Southwest Region (Region 2)
                                        JOINT VENTURE
Lower Mississippi Valley Joint Venture
                                     WILDLIFE REFUGES
Tensas Wildlife Refuge, Louisiana
Patuxent Research Refuge, Maryland
Bosque del Apache Wildlife Refuge, New Mexico
Sevilleta Wildlife Refuge, New Mexico
Las Vegas Wildlife Refuge, New Mexico
                     APPENDIX C: TABLE OF SUGGESTIONS

NUMBER                             SUGGESTION                                        PAGE

                                        PLANNING
         Program officials should assess existing Regional plans and identify
  1      best practices that can serve as criteria for more consistent                5
         development of prioritized plans in every Region.
         FWS officials should develop and conduct workshops for employees
         and appropriate Program partners to expand understanding of
  2      Strategic Habitat Conservation. Workshops should address the                 6
         purpose of the SHC business model, its underlying principles, and the
         practical implications for conservation activities in the field.
         FWS officials should strengthen the Program’s partnership with the
         U.S. Geological Survey by entering into a formal memorandum of
  3                                                                                   7
         understanding that would clarify each bureau’s capabilities, roles, and
         responsibilities.

                            PERFORMANCE MEASUREMENT
         FWS officials should work with JV management bodies to revise
  4      reporting procedures for key performance information, and vest FWS           9
         Regional Offices with responsibility for performance data validation.
         FWS officials should revise its efficiency measure to show the extent
  5      to which Program resources are focused on restoring high-priority            10
         habitat at a reasonable cost.
         FWS officials should develop and conduct workshops for employees
         and appropriate Program partners to increase awareness of the latest
         technological improvements in conservation modeling. These
  6                                                                                   11
         workshops should include concrete examples of how such
         technologies have been used to date and include real data where
         possible.
         FWS management should expand opportunities for management and
  7      public policy training for technical researchers serving at all levels of    12
         the Program.

                              INDEPENDENT EVALUATION
         FWS officials should develop and implement a comprehensive
         evaluation strategy that incorporates multiple perspectives in the
  8                                                                                   13
         assessment of Program activities at various levels and Program
         outcomes at various scales.
         FWS officials should work to engage a cadre of skilled volunteers to
  9                                                                                   13
         provide independent assessment of Program operations in the field.
  Report Fraud, Waste, Abuse,
     and Mismanagement
          Fraud, waste, and abuse in government
          concerns everyone: Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
              allegations to us in several ways.




By Mail:          U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 5341 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone          24-Hour Toll Free               800-424-5081
                  Washington Metro Area           703-487-5435

By Fax            703-487-5402

By Internet       www.doioig.gov/hotline
